NO:

IN THE
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020

MARQUIS WILSON,
Petitioner,
v.

UNITED STATES OF AMERICA
Respondent.

 

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT

 

MOTION FOR LEAVE TO PROCEED JN FORMA PAUPERIS

 

Petitioner Marquis Wilson, pursuant to the Supreme Court of the United
States Rule 39 and 18 U.S.C. ยง 3006A(d)(6), asks for leave to file the accompanying
Petition for Writ of Certiorari to the United States Court of Appeals for the Third
Circuit without prepayment of costs and to proceed in forma pauperis. On appeal to
the United States Court of Appeals for the Third Circuit, Petitioner was represented
by counsel appointed under the Criminal Justice Act, 18 U.S.C. ยง 3006A(b) and (c).
Consistent with the Supreme Court of the United States Rule 39, no affidavit is

required to be filed in support of this motion.
Dated: October 16, 2020

Respectfully submitted,

Aken Bull

Alison Brill, Esq.
Assistant Federal Public Defender

Office of the Federal Public Defender
22 South Clinton Avenue

Station Plaza #4, Fourth Floor
Trenton, New Jersey 08609

(609) 489-7457

alison_brill@fd.org

Attorney for Petitioner
Marquis Wilson
